               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          International Transportation
                    Payments

                       Audit Report




                                         September 28, 2012

Report Number CA-AR-12-007
                                                                      September 28, 2012

                                              International Transportation Payments

                                                          Report Number CA-AR-12-007




BACKGROUND:                                   Postal Service stated they did not
The U.S. Postal Service operates five         review these payments for accuracy
international service centers responsible     because they were based on another
for the distribution of international mail    agency’s rates. Accordingly, they
to and from foreign countries. In August      provided no evidence of prior
2005, the Postal Service began using          certification, nor was supporting data
the Surface Air Support System (SASS)         maintained that could be readily
to process payments to contracted air         reviewed. We did note that controls
carriers for transporting international       were in place for payments initiated in
mail. However, on July 10, 2010, the          GBS to ensure traceability, approval,
SASS International Payment System             and subsequent verification.
was retired and replaced with the Global
Business System (GBS). In fiscal year         WHAT THE OIG RECOMMENDED:
2011, the Postal Service made $886            We recommended management
million in international air transportation   maintain payment back-up data in a
payments.                                     form that will facilitate the traceability,
                                              approval, and verification of contract
Our objectives were to evaluate the           payments after a system has been
Postal Service’s oversight of                 retired.
international air transportation contracts
and determine whether payments to             Link to review the entire report.
international air carriers for outbound
mail transportation were accurate.

WHAT THE OIG FOUND:
The Postal Service generally provided
sufficient oversight of the international
air transportation contract. Payments
initiated through GBS totaling
$1,543,530,528 (94 percent of total
payments issued to international air
carriers) were accurate. However, we
were unable to determine the accuracy
of about $46 million per year SASS-
initiated payments made between June
2009 and June 2011 that were
ultimately processed through GBS (6
percent of the total payments). The
September 28, 2012

MEMORANDUM FOR:             GISELLE E. VALERA
                            VICE PRESIDENT, GLOBAL BUSINESS


                                       E-Signed by Michael A. Magalski
                                    VERIFY authenticity with eSign Desktop




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – International Transportation Payments
                            (Report Number CA-AR-12-007)

This report presents the results of our audit of the U.S. Postal Service’s International
Transportation Payments (Project Number 11YG051CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Nagisa Manabe
    Stephen J. Masse
    Susan Brownell
    Susan A. Witt
    Corporate Audit and Response Management
International Transportation Payments                                                                              CA-AR-12-007




                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

International Air Carrier Payment Verifications................................................................ 1

Recommendation ............................................................................................................ 2

Management’s Comments .............................................................................................. 2

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary Impact ......................................................................................... 8

Appendix C: Management’s Comments .......................................................................... 9
International Transportation Payments                                                                   CA-AR-12-007



Introduction

This report presents the results of our audit of the U.S. Postal Service’s International
Transportation Payments (Project Number 11YG051CA000). Our audit objectives were
to evaluate the Postal Service’s oversight of international air transportation contracts
and determine whether payments to international air carriers for outbound mail
transportation are accurate. This self-initiated audit addresses financial and operational
risk. See Appendix A for additional information about this audit.

In 2009, the Postal Service began solicitation for fixed price proposals from direct air
carriers for the worldwide transportation of its International Expedited, Preferred, and
Deferred products 1 for a contract period of 2 years. In order to contract with the Postal
Service, international air carriers must demonstrate they are electronic data interchange
(EDI)-compliant. 2 Payments to carriers are generally system-generated based on
required carrier scanning events and graduated liquidated damages that apply for
failure to meet product service requirements. Contract rates are applied by region and
depend on various lane designations 3 and product types. In fiscal year 2011, the Postal
Service made $886 million in international air transportation payments.

Conclusion

The Postal Service generally provided sufficient oversight of international air
transportation contracts. We determined that payments based on Logistics Contract
Management System (LCMS) contract rates and Global Business System (GBS) scans
totaling $1,543,530,528 (94 percent of the total payments to international air carriers)
were accurate and that the Postal Service managed the oversight of these payments
appropriately. However, payments initiated in the Surface Air Support System (SASS)
totaling $91.6 million (6 percent of the total payments to international air carriers), or
about $46 million annualized, were not verified for accuracy before issuance. The Postal
Service retied SASS on July 10, 2010, and could not provide evidence of prior
certification of these payments, nor did it maintain supporting data in a form that could
be readily reviewed. Management stated they will retain SASS data until June 2018;
however, no business rules or application software exists to readily manipulate the data.

International Air Carrier Payment Verifications

Payments based on LCMS contract rates and initiated through GBS totaling
$1,543,530,528 — or 94 percent of the total payments made for the period June 2009

1
  Express Mail International (Expedited), Priority Mail International (Preferred), and First-Class Mail International
(Deferred) mail items.
2
  EDI compliance enables carriers to transmit electronically scanned barcode information from the carrier’s system to
the Postal Service system.
3
  The Postal Service has segregated international countries into seven geographical regions for rate structure
purposes. The regions include: Transborder (Canada and Mexico), Latin America and the Caribbean,
Europe/Commonwealth of Independent States/Africa, Southwest Asia and Middle East, Northeast Asia, Southeast
Asia, and Oceania, with lane designations of heavyweight or lightweight per airport origination and destination pair for
mail transport.
                                                             1
International Transportation Payments                                                                  CA-AR-12-007



through June 2011 — were accurate. Specifically, payment information initiated through
GBS for mail delivered according to contract requirements matched carrier rates in
LCMS. In instances where penalties, liquidated damages, or missed carrier scans
occurred, the contractor received a reduced or zero payment for the delivery, as
appropriate.

However, 685 international air carrier payments initiated in the SASS totaling
$91,585,550 — or 6 percent of the total payments made for the period June 2009
through June 2011 — were not verified for accuracy before issuance. Further, the
Postal Service did not maintain supporting data from the retired SASS International
Payment System in a form that could be readily reviewed. Management stated they
backed up SASS data and will retain it until June 2018; however, no business rules or
application software exists to readily manipulate the data. Therefore, we could not verify
the accuracy of these payments.

The Postal Service’s International Accounting team stated that these SASS payments
were based on U.S. Department of Transportation (DOT) rates and the Postal Service
never reviewed them for accuracy. A prior U.S. Postal Service Office of Inspector
General (OIG) report 4 found that insufficient system and management controls over the
SASS resulted in payment errors to air carriers transporting international airmail. In
addition, the system design did not contain the necessary business logic to correctly
calculate payments for the transport of international mail. Without validation controls
and supporting documentation to verify these payments, there is an increased risk that
the Postal Service made inaccurate payments to contracted carriers for their
services. Therefore, we will report these SASS payments (totaling $91,585,550) made
during our review period as unsupported questioned cost. 5

Recommendation

We recommend the vice president, Global Business:

1. Maintain payment back-up data in a form that will facilitate the traceability, approval,
   and verification of contract payments after a system has been retired. This data
   should be maintained for at least the 6-year contractual records retention period.

Management’s Comments

Management disagreed with the basis of our finding, recommendation, and monetary
impact. Management stated that $13 million of the reported $91.5 million in unsupported
questioned costs did not originate from SASS, but these payments were made via the
LCMS module and went through an approval process. Management also stated they
found receptacle-level support for some other sampled invoices. Management
disagreed with our assessment that SASS payments were not verified for accuracy prior

4
 Controls Over International Air Transportation Payments (Report Number CRR-AR-09-003, dated March 5, 2009).
5
 A subset of questioned costs that is claimed because of failure to follow policy or required procedures but that does
not necessarily connote any real damage to the Postal Service.


                                                          2
International Transportation Payments                                           CA-AR-12-007



to payment. Management indicated that, because of the magnitude of data-intensive
systems such as SASS and GBS, these payments do not receive manual review prior to
payment. Instead management built payment data systems with programmed logic to
align with contract requirements, terms, and conditions. Management further indicated
that the SASS data in question was accessible to the audit team via Enterprise Data
Warehouse (EDW) queries. Management further suggested that officials who verified
that the Postal Service never reviewed SASS payments for accuracy may not have the
historical background to accurately offer this information.

Management does not agree that they should maintain payment back-up data in a form
that would facilitate verification of contract payments after a system has been retired,
and suggested that the Postal Service is not in a financial position to do so. They
pointed out that the retirement and replacement of large, complex systems are rare and
require significant resource expenditures; and they believe the data retention policy for
the SASS to GBS transition was appropriate. Finally, management believes our report
should be addressed to Supply Management instead of Global Business due to
organizational changes. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to the recommendation in
the report. We view the disagreement with this recommendation as unresolved but do
not plan to pursue it through the formal audit resolution process and are closing the
recommendation with the issuance of this report.

Regarding SASS payment verifications, there is a fundamental requirement that
invoices must be certified by a contracting officer (CO) or a contracting officer
representative (COR) with appropriate delegation authority prior to payment. Our audit
found no evidence of these payments being verified for accuracy by a CO or COR prior
to payment. Building payment data systems with programmed logic to align with
contract requirements, terms and conditions is not a valid or effective substitute for this
requirement. Additionally, Global Transportation Contracts, International Accounting,
and Global Systems management officials confirmed during our fieldwork that SASS
payments were not reviewed for accuracy prior to payment and management
subsequently provided no evidence of verification.

Further, in an August 16, 2012 meeting with OIG, management stated they would
provide documentation of SASS payment reconciliations and access to the database
containing SASS archived data to support their assertion that these payments, included
in unsupported questioned costs, had received appropriate verification prior to payment.
We followed up multiple times prior to issuing our draft report and noted that neither the
reconciliation documentation nor access to the data files were provided for our analysis.
Also, management did not provide sufficient evidence in support of their statement that
$13 million of the unsupported questioned costs did not come from the SASS system.
Management was given time to provide additional data before we issued the draft
report, but did not provide timely information. Management restored the SASS



                                             3
International Transportation Payments                                          CA-AR-12-007



international database on September 26, 2012, after the audit had concluded.
Interviews with contracting officials confirmed that SASS payments were never
reviewed and certified before contract payment. In addition, supporting documentation
to trace contracted rates and mail types for SASS payments does not exist. Therefore,
the restored data will not meet all the necessary criteria to exclude it from unsupported
questioned costs.

Management also stated that SASS data was accessible to the audit team via EDW
queries. We met with Global Systems management and Accenture in March 2012 to
discuss the possibility of accessing SASS data through EDW. At that time the detailed
SASS payment data was not accessible, although GBS data could be accessed.
Additionally, supporting documentation to trace contracted rates and mail types for
SASS payments does not exist. Thus, data available in EDW is not complete and
cannot provide all the necessary information to verify payments for accuracy prior to
payment.

Regarding maintenance of payment back-up data in a form that facilitates traceability,
management does not view this as a priority. While we acknowledge the Postal
Service’s financial constraints, we believe maintaining payment back-up data for retired
systems in a traceable form for verification purposes is important in meeting contractual
records retention requirements and ensuring the integrity of the payment verification
process.

Further, it appears that management’s comments addressed statements that were not
in our report, including a comparison of 2010 and 2011 international transportation
payments. We do report $886 million in total international air transportation payments
for FY 2011, which we confirmed with International Accounting management officials.

Finally, the report is addressed to Global Business because it owned the SASS
payment data when the system was active. Global Business should coordinate with
Global Systems management to ensure appropriate data fields and formats are defined
and maintained to meet records retention requirements and allow subsequent
traceability in an efficient manner.




                                            4
International Transportation Payments                                                                   CA-AR-12-007




                                 Appendix A: Additional Information

Background

International mail consists of all letters and cards, printed matter, and Parcel Post 6
exchanged between the U.S. and foreign countries. Five international service centers7
are responsible for the distribution and dispatch of international mail received from a
designated service area to specific foreign countries or to gateway exchange offices.
Policy covering the distribution, routing, and transportation of international mail is the
responsibility of international and military mail operations, logistics, and headquarters.

The Postal Service deployed the SASS in August 2001 to manage domestic mail
transportation needs and, subsequently, modified the system in August 2005 to process
payments to air carriers for transporting civilian and military mail to foreign destinations.
On July 10, 2010, the Postal Service retired the SASS International Payment System
and replaced it with GBS.

The GBS application manages the process of mail entering and leaving the U.S., as
well as the reconciliation between mail sent and received. This process is divided into
three modules in GBS: International Dispatch, International Receipt, and the
International Reconciliation System.

In October 2008, new legislation 8 was passed regarding the procurement process and
rate structure associated with the air transportation of Postal Service international mail
products. The new legislation allowed the Postal Service to seek a competitive rate
structure replacing DOT, International Air Transport, and International Surface Air Lift air
contracts. As a result, in 2009, the Postal Service began solicitating for fixed price
proposals from direct air carriers for the worldwide transportation of its International
Expedited, Preferred, and Deferred products for a contract period of 2 years, expiring in
July 2011. However, the Postal Service extended these contracts to February 3, 2012
because of updates to various processes and changes to some contract language. On
February 4, 2012, the Postal Service awarded contracts for 3 years, set to expire
February 6, 2015.

In order to contract with the Postal Service, international air carriers must demonstrate
they are EDI-compliant. Payments are generally system-generated based on required
carrier scanning events and graduated liquidated damages apply for failure to meet
product service requirements. Contract rates are applied by region and depend on
various lane designations and product types. Except for Deferred mail, all scans
(possession, load, transfer, and delivery) must be performed and submitted within the
payment cycle to receive payment for services performed. For Deferred mail, payment

6
  A service that provides a lower cost shipping option for less-than-urgent deliveries and packages that are not
eligible for First-, Second-, or Third-Class mail delivery.
7
  New York, Miami, Chicago, Los Angeles, and San Francisco.
8
  §3536, Public Law 110-405, The Air Carriage of International Mail Act, approved October 13, 2008.


                                                           5
International Transportation Payments                                           CA-AR-12-007



is made for all receptacles receiving an on-time delivery scan at final destination if the
destination is a designated scanning location. In FY 2011, the Postal Service made
$886 million in international air transportation payments.

Objectives, Scope, and Methodology

Our objectives were to evaluate the Postal Service’s oversight of international air
transportation contracts and determine whether payments to international air carriers for
outbound mail transportation were accurate. To accomplish our objectives, we:

   Reviewed the Postal Service’s International Air Transportation contract for civilian
    and military mail.

   Interviewed Postal Service and international air carrier personnel to determine
    existing policies and procedures related to international air transportation payments.

   Visited the J.T. Weeker ISC in Chicago, IL to examine controls over GBS processes
    and observed processes used to build and dispatch mail to contracted international
    air carriers.

   Observed acceptance, processing, and plane-side loading of the mail by contracted
    international air carriers.

   Obtained payment data from the EDW, compared these payments to GBS barcode
    data, and traced them back to LCMS to determine payment accuracy.

   Tested a random sample of 414 payments issued to international air carriers totaling
    $1,511,359 for the review period of June 2009 to June 2011. The Postal Service
    paid international air carriers $1,635,116,079 during that period.

   Conducted a judgmental sample of 27 international air carriers to determine whether
    they have a quality management system in place as required by the contract.

We assessed the reliability of electronic data from GBS and LCMS by performing tests
of the data for a sample period and interviewing agency officials knowledgeable about
the data. We determined the data were sufficiently reliable for the purposes of this
report. We conducted this performance audit from September 2011 through August
2012 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We discussed our observations and conclusions with management on
August 14, 2012, and included their comments where appropriate.




                                             6
International Transportation Payments                                       CA-AR-12-007




Prior Audit Coverage

In our report titled Controls Over International Air Transportation Payments (Report
Number CRR-AR-09-003, dated March 5, 2009), we found that insufficient system and
management controls over the SASS resulted in payment errors to air carriers
transporting international airmail. We reported $3.95 million in recoverable questioned
costs for the additional contract expenditures incurred to identify and correct payment
calculation issues related to international air payments in the SASS. The OIG
recommended the Postal Service identify potential payment deficiencies in the SASS
and implement system changes; update system documentation, consult with Supply
Management concerning contract payments to initial contractors and pursue recoveries,
develop reports capable of identifying payment errors to air carriers; and implement a
reconciliation process to rectify payment errors. Management agreed with the audit
findings and recommendations.




                                           7
International Transportation Payments                                                                  CA-AR-12-007



                                     Appendix B: Monetary Impact


            Recommendation                     Impact Category                             Amount
                  1                      Unsupported Questioned Costs9                    $91,585,550


The monetary impact represents 100 percent of SASS payments issued to international
air carriers during the audit review period, June 2009 through June 2011. The Postal
Service never reviewed these payments for accuracy as required. Without validation
controls and supporting documentation to verify these payments, there is an increased
risk that the Postal Service made inaccurate payments to contracted carriers for their
services.




9
 A subset of questioned costs that is claimed because of failure to follow policy or required procedures but that does
not necessarily connote any real damage to the Postal Service.




                                                          8
International Transportation Payments                          CA-AR-12-007




                           Appendix C: Management’s Comments




                                           9
International Transportation Payments        CA-AR-12-007




                                        10
International Transportation Payments        CA-AR-12-007




                                        11
International Transportation Payments        CA-AR-12-007




                                        12
